<html>
<title> - MOTOR VEHICLE TECHNOLOGY AND THE CONSUMER: VIEWS FROM THE NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION HEARING BEFORE THE SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION OF THE COMMITTEE ON ENERGY AND COMMERCE HOUSE OF REPRESENTATIVES ONE HUNDRED NINTH CONGRESS SECOND SESSION JULY 18, 2006 Serial No. 109-111 Printed for the use of the Committee on Energy and Commerce Available via the World Wide Web: http://www.access.gpo.gov/congress/house U.S. GOVERNMENT PRINTING OFFICE 30-217 WASHINGTON : 2006</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
                 MOTOR VEHICLE TECHNOLOGY AND THE 
           CONSUMER:  VIEWS FROM THE NATIONAL HIGHWAY 
                  TRAFFIC SAFETY ADMINISTRATION


                              HEARING

                            BEFORE THE

                 SUBCOMMITTEE ON COMMERCE, TRADE, 
                      AND CONSUMER PROTECTION

                               OF THE 

                      COMMITTEE ON ENERGY AND 
                              COMMERCE

                      HOUSE OF REPRESENTATIVES



                      ONE HUNDRED NINTH CONGRESS

                            SECOND SESSION


                            JULY 18, 2006

                          Serial No. 109-111

        Printed for the use of the Committee on Energy and Commerce



Available via the World Wide Web: http://www.access.gpo.gov/congress/house



                    U.S. GOVERNMENT PRINTING OFFICE
30-217                      WASHINGTON : 2006
_____________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area (202) 
512-1800 Fax: (202) 512-2250  Mail: Stop  SSOP, Washington, DC 20402-0001


                   COMMITTEE ON ENERGY AND COMMERCE
                     JOE BARTON, Texas, Chairman
RALPH M. HALL, Texas                      JOHN D. DINGELL, Michigan
MICHAEL BILIRAKIS, Florida                  Ranking Member
  Vice Chairman                           HENRY A. WAXMAN, California
FRED UPTON, Michigan                      EDWARD J. MARKEY, Massachusetts
CLIFF STEARNS, Florida                    RICK BOUCHER, Virginia
PAUL E. GILLMOR, Ohio                     EDOLPHUS TOWNS, New York
NATHAN DEAL, Georgia                      FRANK PALLONE, JR., New Jersey
ED WHITFIELD, Kentucky                    SHERROD BROWN, Ohio
CHARLIE NORWOOD, Georgia                  BART GORDON, Tennessee
BARBARA CUBIN, Wyoming                    BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois                    ANNA G. ESHOO, California
HEATHER WILSON, New Mexico                BART STUPAK, Michigan
JOHN B. SHADEGG, Arizona                  ELIOT L. ENGEL, New York
CHARLES W. "CHIP" PICKERING,  Mississippi ALBERT R. WYNN, Maryland
  Vice Chairman                           GENE GREEN, Texas
VITO FOSSELLA, New York                   TED STRICKLAND, Ohio
ROY BLUNT, Missouri                       DIANA DEGETTE, Colorado
STEVE BUYER, Indiana                      LOIS CAPPS, California
GEORGE RADANOVICH, California             MIKE DOYLE, Pennsylvania
CHARLES F. BASS, New Hampshire            TOM ALLEN, Maine
JOSEPH R. PITTS, Pennsylvania             JIM DAVIS, Florida
MARY BONO, California                     JAN SCHAKOWSKY, Illinois
GREG WALDEN, Oregon                       HILDA L. SOLIS, California
LEE TERRY, Nebraska                       CHARLES A. GONZALEZ, Texas
MIKE FERGUSON, New Jersey                 JAY INSLEE, Washington
MIKE ROGERS, Michigan                     TAMMY BALDWIN, Wisconsin
C.L. "BUTCH" OTTER, Idaho                 MIKE ROSS, Arkansas                       
SUE MYRICK, North Carolina
JOHN SULLIVAN, Oklahoma
TIM MURPHY, Pennsylvania
MICHAEL C. BURGESS, Texas
MARSHA BLACKBURN, Tennessee               

                    BUD ALBRIGHT, Staff Director
                   DAVID CAVICKE, General Counsel
      REID P. F. STUNTZ, Minority Staff Director and Chief Counsel


       SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER PROTECTION
                   CLIFF STEARNS, Florida, Chairman
FRED UPTON, Michigan                      JAN SCHAKOWSKY, Illinois
NATHAN DEAL, Georgia                        Ranking Member
BARBARA CUBIN, Wyoming                    MIKE ROSS, Arkansas
GEORGE RADANOVICH, California             EDWARD J. MARKEY, Massachusetts
CHARLES F. BASS, New Hampshire            EDOLPHUS TOWNS, New York
JOSEPH R. PITTS, Pennsylvania             SHERROD BROWN, Ohio
MARY BONO, California                     BOBBY L. RUSH, Illinois
LEE TERRY, Nebraska                       GENE GREEN, Texas
MIKE FERGUSON, New Jersey                 TED STRICKLAND, Ohio
MIKE ROGERS, Michigan                     DIANA DEGETTE, Colorado
C.L. "BUTCH" OTTER, Idaho                 JIM DAVIS, Florida
SUE MYRICK, North Carolina                CHARLES A. GONZALEZ, Texas
TIM MURPHY, Pennsylvania                  TAMMY BALDWIN, Wisconsin
MARSHA BLACKBURN, Tennessee               JOHN D. DINGELL, Michigan
JOE BARTON, Texas                           (EX OFFICIO)                            
  (EX OFFICIO)


                                CONTENTS


                                                                   Page
Testimony of:
     Nason, Hon. Nicole R., Administrator, National Highway Traffic 
          Safety Administration	                                     14


                     MOTOR VEHICLE TECHNOLOGY AND THE 
               CONSUMER:  VIEWS FROM THE NATIONAL HIGHWAY 
                     TRAFFIC SAFETY ADMINISTRATION


                         TUESDAY, JULY 18, 2006

                        HOUSE OF REPRESENTATIVES,
                    COMMITTEE ON ENERGY AND COMMERCE,
                    SUBCOMMITTEE ON COMMERCE, TRADE, 
                         AND CONSUMER PROTECTION,
                                                              Washington, DC.


        The subcommittee met, pursuant to notice, at 2:08 p.m. , in 
Room 2322 of the Rayburn House Office Building, Hon. Cliff 
Stearns [Chairman] presiding.
        Members present:  Representatives Stearns, Radanovich, 
Murphy, Blackburn, Barton (ex officio), Schakowsky, Markey, 
Green, and Gonzalez.
        Staff Present:  David Cavicke, General Counsel; Kelly Cole, 
Counsel; Chris Leahy, Policy Coordinator; Brian McCullough, 
Professional Staff Member; Billy Harvard, Legislative Clerk; 
Jonathan Cordone, Minority Counsel; and Jonathan Brater, 
Minority Staff Assistant.
        MR. STEARNS.  Good afternoon, everybody.  I want to thank 
Administrator Nason for being here and joining us today and 
sharing her views about the current mission of the National 
Highway Traffic Safety Administration, its priorities and goals, 
and how we can better help save lives and prevent injuries on our 
Nation's roadways. 
        The committee strongly believes NHTSA's charge is vitally 
important to the health and safety of Americans and the continued 
growth of our national economy.  We also realize that your job, 
Administrator, is especially challenging at a time when many of 
our Nation's auto manufacturers, suppliers, and related industries 
are trying to cope with intense competition in the marketplace and 
the financial resource burdens government mandates put on their 
business operations--operations that are focused on building the 
cars and trucks their customers want to drive, not just what 
Washington thinks they should drive.  Vehicle safety and fuel 
efficiency policy must hit the sweet spot of saving the most lives, 
preventing the most injuries and allowing our industries to provide 
the American consumer with what they want in their driveways. 
        Traffic crashes kill over 43,000 people a year, injuring over 2.6 
million and costs our economy over $230 billion in healthcare and 
other related costs annually.  Thankfully, NHTSA, under its strong 
leadership, has allowed and promoted technology to provide 
solutions to help reduce fatalities and improve those statistics.  
Many now believe that so-called "crashworthiness" technology 
and engineering, like advanced air bags and safety structures, have 
reached a level of diminishing returns for the protection of 
occupants from death or injury.  While that may be true, my 
concern is how many resources does pursuing that strategy take 
away from other approaches that hold the promise of saving many 
more lives by using technology to avoid crashes altogether.  Crash 
avoidance technologies use advanced technology to help the driver 
avoid collisions, either through enhanced handling, improved 
vision, or simply better information about the driving environment.  
In fact, one active safety technology, called electronic stability 
control, or ESC, is showing remarkable effectiveness in helping 
prevent crashes, including crashes that involve rollovers, one of the 
most lethal types of crashes, particularly for occupants that do not 
have their seatbelts on.  According to a recent NHTSA study, if 
deployed over the entire vehicle fleet, ESC would save over 10,000 
lives annually--no technology other than safety belts even comes 
close to that potential.  Several major auto manufacturers have 
already announced voluntary commitments to make ESC standard 
on all models by a date certain.  Safety obviously sells. 
        But technology cannot do it all.  Sadly almost 60 percent of all 
fatalities from vehicle crashes annually are from unbelted 
occupants.  Buckling up that safety belt should be just as automatic 
as looking both ways before you cross an intersection.  It is a 
necessary part of being a capable driver, and yet all the technology 
and education in the world is challenged to change some people's 
behavior.  Even so, a great deal has paid off in the restraint area 
with the safety belt usage rate now at 82 percent, up over 
10 percent since 2000.  In addition, NHTSA is applying that same 
energy to combat impaired and teen driving as well as drowsy 
driving, which has been shown to contribute as many as a hundred 
thousand crashes a year with over 1,300 fatalities.  
        In terms of fuel efficiency and CAFE, which can have 
disastrous consequences for vehicle safety when done wrong, I 
would like to hear more about how the reformed, continuous-
function CAFE system developed for light trucks would help 
balance the dual policy goals of fewer fatalities and injuries with 
fewer trips to the gas station for the American consumer.  Again, I 
believe technology needs to be allowed to entice customers to 
accept fuel efficiency as a major factor in the buying decision 
process.  Macroeconomic factors like high fuel prices are already 
having a very dramatic effect on the type of vehicles consumers 
are buying.  Advanced technologies, like advanced hybrid and 
clean diesel powertrains, continuously variable transmissions 
(CVT), 6- and 7-speed automatic transmissions, as well as better 
use of information technology for navigational systems and traffic 
congestion mitigation are all technologies that can become 
"must-haves" for the consumer, help conserve oil and do so 
without producing adverse safety consequences.  In the short time, 
I also hope we can move Chairman Barton's bill, H.R. 5359, to the 
floor so we can give NHTSA clear statutory authority to reform 
passenger car CAFE standards.  In addition, my colleagues and I 
are glad this bill allows us to study mandates like requiring 
manufacturers to meet separate CAFE standards for their foreign 
and domestic passenger car fleets, a policy, in my opinion, that 
only serves to promote bad business decisions for the American 
economy and further restricts the ability of the market and the 
consumer to embrace progress. 
        Lastly, the Committee would like to hear more about the 
consumer education work being done by NHTSA to promote 
safety and fuel efficiency in the marketplace.  It takes good 
information and education to encourage consumers to initially buy 
into advanced technology that saves lives and oil, as much as 
willing buyers must have cupholders, rims, and DVD players.  
Cars and trucks are consumer products, and the consumer is king 
in the competitive marketplace.  Part of our job and NHTSA's is to 
ensure that a well-educated consumer is king so that their buying 
decisions can help save lives, prevent injuries, and make our 
oil-powered automobile market more energy efficient and 
responsive to one powered by alternative fuels and other advanced 
technologies.  
        So I want to thank the Administrator for coming to see us 
today.  I look forward to her testimony.  
        And with that I yield to the Ranking Member, Ms. 
Schakowsky.  
        [The prepared statement of Cliff Stearns follows:] 

PREPARED STATEMENT OF THE HON. CLIFF STEARNS, CHAIRMAN, 
SUBCOMMITTEE ON COMMERCE, TRADE, AND CONSUMER 
PROTECTION

        Good afternoon.  I want to thank Administrator Nason for 
joining us today and sharing her views about the current mission of 
the National Highway Traffic Safety Administration (NHTSA), its 
priorities and goals, and how we can help better save lives and 
prevent injuries on our nation's roadways.  The Committee 
strongly believes NHTSA's charge is vitally important to the 
health and safety of Americans and the continued growth of the 
Nation's economy.  We also realize that your job, Administrator 
Nason, is especially challenging at a time when many of our 
nation's auto manufacturers, suppliers, and related industries are 
trying to cope with intense competition in the marketplace and the 
financial and resource burdens government mandates put on their 
business operations - operations that are focused on building the 
cars and trucks their customers want to drive, not just what 
Washington thinks they should drive.  Vehicle safety and fuel 
efficiency policy must hit the sweet spot of saving the most lives, 
preventing the most injuries, and allowing our industries to provide 
the American consumer with what they want in their driveways.  
        Traffic crashes kill over 43,000 people a year, injure over 2.6 
million, and cost our economy over $230 billion in healthcare and 
other related costs, annually.  Thankfully, NHTSA, under its strong 
leadership, has allowed and promoted technology to provide 
solutions to help reduce fatalities and improve those statistics.  
Many now believe that so-called "crashworthiness" technology 
and engineering, like advanced airbags and safety structures, has 
reached a level of diminishing returns for the protection of 
occupants from death or injury.  While that may be true, my 
concern is how many resources does pursuing that strategy take 
away from others approaches that hold the promise of saving many 
more lives by using technology to avoid crashes altogether. Crash 
avoidance technologies use advanced technology to help the driver 
avoid collisions, either through enhanced handling, improved 
vision, or simply better information about the driving environment.  
In fact, one active safety technology, called electronic stability 
control or ESC, is showing remarkable effectiveness in helping 
prevent crashes, including crashes that involve rollovers - one of 
the most lethal types of crash--particularly for unbelted occupants.    
According to a recent NHTSA study, if deployed over the entire 
vehicle feet, ESC could save over 10,000 lives annually--no 
technology other than safety belts even comes close to that 
potential.  Several major auto manufacturers have already 
announced voluntary commitments to make ESC standard on all 
models by a date certain.  Safety sells. 
        But technology cannot do it all.  Sadly, almost 60% of all 
fatalities from vehicle crashes annually are unbelted occupants.  
Buckling up that safety belt should be just as automatic as looking 
both ways before you cross an intersection.  It is a necessary part 
of being a capable driver and yet all the technology and education 
in the world is challenged to change some people's behavior.  Even 
so, a great deal has paid off in the restraint area with the safety belt 
usage rate now at 82% - up over 10% since 2000.  In addition, 
NHTSA is applying that same energy to combat impaired and teen 
driving, as well as drowsy driving, which has been shown to 
contribute to as many as 100,00 crashes a year, with over 1,300 
fatalities.  
        In terms of fuel efficiency and CAFE, which can have 
disastrous consequences for vehicle safety when done wrong, I'd 
like to hear more about how the reformed, continuous function 
CAFE system developed for light trucks will help balance the dual 
policy goals of fewer fatalities and injuries with fewer trips to the 
gas station for the American consumer.  Again, I believe 
technology needs to be allowed to entice consumers to accept fuel 
efficiency as a major factor in the buying decision process.  Macro 
economic factors like high fuel prices are already having a very 
dramatic effect on the type of vehicles consumers are buying.  
Advanced technologies like advance hybrid and clean diesel 
powertrains, continuously variable transmissions (CVT), 6- and 7- 
speed automatic transmissions, as well as better use of information 
technology for navigational systems and traffic congestion 
mitigation are all technologies that can become "must haves" for 
the consumer, help conserve oil, and do so without producing 
adverse safety consequences.  In the short term, I also hope we can 
move Chairman Barton's bill, HR 5359, to the floor so we give 
NHTSA clear statutory authority to reform passenger car CAFE 
standards.  In addition, I'm glad the bill allows us to study 
mandates like requiring manufacturers to meet separate CAFE 
standards for their foreign and domestic passenger car fleets - a 
policy, in my opinion, that only serves to promote bad business 
decisions for the American economy and further restrict the ability 
of the market and the consumer to embrace progress. 
        Lastly, The Committee would like to hear more about the 
consumer education work being done by NHTSA to promote 
vehicle safety and fuel efficiency in the marketplace.  It takes good 
information and education to encourage consumers to initially buy 
in to advanced technology that save lives and oil, as much as 
willing buyers must have cup holders, rims, and DVD players.  
Cars and trucks are consumer products, and the consumer is king 
in a competitive market.  Part of our job and NHTSA's is to ensure 
that a well-educated consumer is king so their buying decisions 
can help save lives, prevent injuries, and make our oil-powered 
automobile market more energy efficient and responsive to one 
powered by alternative fuels and other advanced technologies.  
        Again, thank you Administrator Nason.  We look forward to 
you testimony. 

        MS. SCHAKOWSKY.  Thank you, Chairman Stearns, for holding 
this hearing today so we can discuss with Ms. Nason, the new 
Administrator of the National Highway Traffic Safety 
Administration, the agenda the Bush Administration has planned 
for NHTSA and her plans.  I believe we are all united behind 
improving safety, reducing fatalities and injuries, better promoting 
children in and around cars.  I look forward to hearing your views, 
Administrator Nason, and want to thank you for meeting with me 
before this hearing.  I appreciate our discussion.  Welcome. 
        In 2005, over 43,000 people died in motor vehicle crashes in 
the United States.  That has been the annual average for the past 
decade.  And in 2005, nearly 2.7 million more people were injured, 
thankfully, a slight decrease from past years.  However, those 
numbers do not include children who were injured or killed in and 
around cars that were not in traffic.  According to statistics 
gathered by Kids in Cars, a not-for-profit, at least 220 children 
were killed in non-traffic, non-crash related accidents in 2005.  In 
2006, there have been at least 96 fatalities and 256 known 
incidents of children injured by automobiles in non-traffic related 
events, including hyperthermia and strangulation by power 
windows.  Those numbers are cause for alarm because they are 
really back of the envelope statistics.  
        Soon, if not already, NHTSA will be taking over the data 
collection for non-traffic, as we discussed, non-crash related 
accidents because of the passage of H.R. 3, SAFETEA-LU 
mandated to do so.  I am concerned that we are going to see the 
numbers much worse than the current estimates, yet I believe that 
having a better picture of how severe the problem is should 
motivate the Administration to do all that it can in order to limit 
accidents that are otherwise avoidable and to ensure vehicles on 
and off the roads are as safe as possible.  
        I am convinced from our conversation that as a mom as well as 
Administrator, these are issues of great concern to you as well.  
Fortunately, the passage of SAFETEA-LU also included a number 
of much needed provisions that will make cars safer.  The bill 
requires that roll-over prevention measures be developed, also 
requires stronger standards for roof-crush resistance and side 
impacts.  
        Additionally manufacturers will no longer be able to put power 
window switches in cars that make it easy for a child to be 
strangled by kneeling on an armrest, and NHTSA is going to be 
studying backover prevention technologies to identify the most 
effective technologies for alerting drivers to that which they can't 
see behind their cars.  
        I am happy to see that the investigations are beginning, and that 
rulemaking is a priority of yours.  However, we do need to go 
further.  We need to make sure that power window switches are 
safe, but we also need windows to auto reverse if there is an 
obstruction.  We need to study backover prevention, but we also 
need to require backward visibility standards and we need a 
warning system to remind drivers if there is still someone in the 
back seat.  
        As you know, I, along with Representative Peter King, have 
introduced H.R. 2230, the Cameron Gulbramsen Kids in Car 
Safety Act, which includes those provisions.  Our bill takes the 
extra steps necessary to protect our children from needless harm, 
and I encourage you to look at what NHTSA can do to get the ball 
rolling on those.  The technology exists and there is no reason it 
shouldn't be used in all new cars.  
        Again, I look forward to hearing from you.  I hope that this 
hearing will help to continue a dialogue among the parties.  I am 
convinced that it will, so that we can come to some agreement on 
how to achieve our common goals of consumer protection and 
safer highways and cars.  
        MR. STEARNS.  I now recognize the Chairman of the full 
committee, the distinguished Member from Texas, Mr. Barton.  
        CHAIRMAN BATON.  Thank you, Mr. Chairman.  I want to say I 
appreciate you holding this hearing.  I am going to submit my full 
statement for the record.  I want to welcome the new 
Administrator.  I don't believe we have had you before us before.  
We are glad to have you and we look forward to hearing your 
views.  
        We have got several issues before the committee.  We have 
passed a CAFE bill out of committee that hasn't come to the floor 
yet, and we have some of the issues that Congresswoman 
Schakowsky spoke about in her opening statement.  So we want to 
have a very positive working relationship with your agency.  
        I am an engineer by training and I think the more we let the 
engineers do what is best technologically and let the political 
leadership set the overall policy objectives, I think the better off we 
will be.  So welcome to the committee. 
        [The prepared statement of Chairman Joe Barton follows:]

PREPARED STATEMENT OF THE HON. JOE BARTON, CHAIRMAN, 
COMMITTEE ON ENERGY AND COMMERCE

        Thank you, Chairman Stearns, for holding this hearing today 
and I'd like to extend a warm welcome to the new Administrator of 
the National Highway Traffic Safety Administration, Nicole 
Nason. 
        Although the rate of deaths on our nation's roads decreases 
annually, the actual number staggers the imagination: over 40,000 
people die in automobile accidents every year.  We in Congress 
have taken steps to reduce those numbers.  For instance, in the 
recently enacted transportation bill, the Committee on Energy and 
Commerce ensured that NHTSA will initiate rulemakings on 
important safety issues such as rollover prevention and crash 
mitigation, side-impact protection, and vehicle back-over 
technology.  
        Regulations can and do make cars safer, but government 
regulators can never achieve what carmakers can when buyers 
make safety as important as styling, power or economy.  That's 
why we're not only relying on NHTSA, but on the advances and 
innovation of the automobile industry.  I'm told that the next 
generation of cars will include features that will actually help 
drivers avoid a crash.  Additionally, many car companies are 
including a technology called "electronic stability control" across 
their vehicle fleets, which can prevent loss of control during 
emergency maneuvers. 
        
 	We are making great improvements in automobile safety, but 
I'm anxious to hear from Administrator Nason about what is being 
done within NHTSA, as well as the industry.  
        Beyond automobile safety, NHTSA also sets the corporate 
average fuel economy standards.  The President recently asked for 
the authority to reform the CAFE system for passenger cars, as it 
has done for light trucks.  Despite some opposition, we passed 
H.R. 5359 out of this Committee.  Some said that politicians ought 
to decide safety and mileage issues instead of engineers, but a bill 
that lets the NHTSA experts save both lives and gasoline is one 
that Congress ought to pass.  
        Thank you again, Chairman Stearns, for holding this hearing 
and I look forward to hearing from Administrator Nason.

        MR. STEARNS.  I thank my colleague.  
        Mr. Gonzalez.
        MR. GONZALEZ.  Waive opening. 
        MR. STEARNS.  Mr. Gonzalez waives opening.  Mr. Murphy.  
        MR. MURPHY.  Thank you, Chairman.  
        Very briefly.  As I reviewed all of the things that have been 
happening with cars with technology, whether it is all of the 
cameras or the beepings and the other warning systems within cars 
or whether it is better structural steel in vehicles, or whether it is 
the other innovations such as movies on board, cupholders that 
warm your coffee and cool your Coke, everything else that goes on 
there, I am hoping one of the things you can tell us today is how to 
make drivers better, in the midst of all of this.  
        Just a human element.  I would love to know does all of this 
really work and overcome those basic things that so many of us 
forget at times, but that is the main thing--I would love to hear that 
great secret that you can offer, and I appreciate you being here 
today.  
        Thank you.  
        MR. STEARNS.  Thank the gentleman.  Anyone else seek 
recognition for an opening statement?  
        The gentleman from Massachusetts, Mr. Markey.  
        MR. MARKEY.  Thank you, Mr. Chairman, and we welcome 
you very much and we thank you for taking this very important 
position in our Government.  We clearly are reaching a crisis point, 
when the price of a barrel of oil can close at $77 or $78 a barrel, it 
has tremendous impact on our economy.  It has tremendous impact 
on the stock market, on national security.  And it is a serious issue.  
        Today we learned that the EPA has now determined that the 
average fleet of automobiles that we have in America is about 
21 miles per gallon.  It was about 13 miles a gallon in 1975 when 
this committee passed an amendment to increase it up to 27 miles 
per gallon.  It is now at 21 miles per gallon.  So obviously this is a 
serious problem that we have in our country.  As you know, 
Mr. Boehlert and I have been proposing an amendment over the 
last 6 years, one that would use 33 miles per gallon, that is for 
NHTSA standards.  
        As we all know, there are three sets of books.  One is the 
NHTSA set of books.  That is the CAFE.  Then we have the EPA 
set of books, that is the sticky you see on the car.  And then you 
have consumer reports, which has the third set of books which says 
that neither NHTSA nor EPA is correct in the real driving world.  
        So when we are using these numbers about efficiency, we 
always have to refer to which set of books you are talking about.  
But in each instance, if the goal is to drive out the 2-1/2 million 
barrels of oil that we import from the Persian Gulf every day, then 
the number would be 33 miles per gallon for NHTSA to 
accomplish that goal.  It must be 28 miles per gallon for EPA, and 
for Consumer Reports, only 24 miles per gallon, but nonetheless, 
the goal has to be to back out all of that Persian Gulf oil.  We are 
heading in the wrong direction.  And what we are seeing over the 
last several years is this kind of boulevard of broken promises that 
we have had from the auto industry.  
        The Clinton Administration promised to have worked--to have 
a projection ready on a prototype 80-miles-per-gallon car 2 years 
ago.  That didn't happen.  And we have had other problems.  The 
Freedom Car, Ford said it was going to produce a more efficient 
car to all of these.  It is a boulevard of broken promises to the 
American people that ultimately has huge consequences for our 
economy.  And my opinion is that moving forward we can work 
with you, although I am quite aware that is not your decision as to 
whether or not, in fact, this Administration finally decides that they 
are going to be serious about this energy crisis in America.  And I 
thank the Chairman. 
        [Additional statements submitted for the record follows:]



PREPARED STATEMENT OF THE HON. JOHN D. DINGELL, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

        Mr. Chairman, regulation of motor vehicle safety is a 
significant responsibility under the jurisdiction of this Committee.  
It has been one year since the National Highway Traffic Safety 
Administration (NHTSA) has testified before this panel regarding 
vehicle safety.  In that time there have been significant 
developments and a laundry list of items upon which the agency 
must focus its attention.  This hearing provides us with the 
opportunity to discuss several of these matters with the new 
Administrator, Nicole Nason, and I welcome her today.
        First, it was announced last year that virtually all the world's 
automobile manufacturers entered into a voluntary agreement with 
the Insurance Institute for Highway Safety regarding crash 
compatibility.  In an age when small passenger cars share the road 
with large sport utility vehicles and pickups, this agreement strives 
to make large and small vehicles more compatible during 
collisions.  The cooperative voluntary nature of this agreement is 
bringing life-saving changes to reality more quickly than a 
traditional regulatory process.  Whether it serves as a model to 
improve other categories of vehicle safety remains to be seen, and 
this committee - along with NHTSA - should continue monitoring 
its progress in light of that question.
        Second, we reauthorized NHTSA as part of the highway bill 
during the first session of this Congress.  That legislation provided 
the agency with the authority and resources it requested.  It also 
established a set of regulatory and research priorities with which 
the agency must comply.  We will continue monitoring the 
agency's implementation of these complex requirements, including 
evaluating the safety implications of tire aging, studying back-over 
avoidance technologies, and establishing new safety standards for 
rollovers and side impact crashes.  
        Third, this year has also brought the departure of Dr. Jeff 
Runge as NHTSA Administrator.  Under his leadership, the agency 
created its first-ever multi-year priority plan for new regulations to 
improve the safety of vehicles.  In addition to laying out a logical 
framework in which the agency intended to proceed, it also 
forecast for automakers the direction in which the regulatory 
process was evolving.  This is an important development that 
enabled manufacturers to plan products in advance while 
continually improving the safety of their vehicles.
        Also under his leadership, we have seen an increase in safety 
belt usage, which remains one of the best and least expensive 
means to save lives during an automobile accident.  His strong 
efforts supporting "click it or ticket" programs and the passage of 
primary seatbelt laws across the country has saved lives.  I have 
seen the results of these efforts in my home State of Michigan.  
When it passed a primary seatbelt law six years ago, belt usage 
increased from 70 percent to 83 percent.  Upon the conclusion of a 
successful "click it or ticket" campaign earlier this year, Michigan 
can now boast that 94 percent of its residents buckle-up on a 
regular basis.  These programs are simple, and they do work.
        Madame Administrator, again I thank you for joining us today.  
In this new position you bear a heavy responsibility, and you have 
a great many challenges ahead of you.  I encourage you to continue 
the good work of your predecessor and proceed diligently on the 
life-saving priorities set before you.  On all of these matters, I urge 
you to exercise great caution.  These are complicated issues that 
directly affect the lives of consumers, automakers, and their 
employees.  Before moving forward with new regulations or 
requesting new authority from Congress, it will be important first 
to have a complete understanding of the problem you seek to solve, 
and second to evaluate the implications of proposed solutions 
thoroughly to avoid unintended consequences.  
        Mr. Chairman, I look forward to working with you and the new 
Administrator to ensure the continued safety of the motoring 
public.

PREPARED STATEMENT OF THE HON. GENE GREEN, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF TEXAS

        I'd like to thank Chairman Stearns and Ranking Member 
Schakowsky for holding this hearing today.  I'd also like to thank 
our witnesses for being here today to discuss the important topic of 
highway safety.
        The U.S. Department of Transportation indicates there were 
more than 43,000 highway deaths in 2005 and 3 million injuries 
due to traffic accidents.  
        Unfortunately, on May 5th of last year, a good friend of mine, 
State Representative Joe Moreno was killed when he lost control of 
his truck and it rolled over several times.  He was driving from 
Houston to Austin so he wouldn't miss votes after attending a 
Houston Rockets play-off game.
        Too many of us have stories of friends or family that have been 
involved in a serious traffic accident.  There are always many 
factors to consider when these accidents occur.  
        For example, in the past, it has been determined that faulty tires 
have resulted in serious accidents.  Road conditions can change 
drastically with changing weather, and unfortunately, most traffic 
accidents involve human error, the most serious being driving 
while intoxicated.
        A Houston Chronicle article reported in April of 2004 that 
103,000 auto accidents with 215 fatalities were reported to the 
Houston Police Department.  
        The Houston area averages about 12 traffic fatalities per 
100,000 people.  This is one the nation's highest rates.  
        I'm very interested in what we can do to bring these numbers 
down.    
        We have seen the effectiveness seat belts have in saving lives, 
but now, technology is playing a larger role in keeping us safe.
Stability control, traction control, and anti-lock breaks have all 
made cars safer, but the people that live in our District don't buy 
new cars very often and these technologies are only found in newer 
models.  
        We need to also emphasize the importance of routine 
maintenance like checking tire pressure, and having your breaks 
and suspension inspected on a regular basis.
        The charges handed to the National Highway Traffic Safety 
Administration carry enormous weight to the public safety.  
        I support any incentive the federal government can offer states 
to implement primary seat belt laws. I agree with the experts that 
say getting people to use their seat belt is the quickest way to bring 
down the number of injuries and deaths on our highways.
        I'd also like to see states have tougher enforcement on drunk 
driving laws.  The fact remains that alcohol has been a factor in 40 
percent of all traffic fatalities last year.  Drinking and driving is 
still a problem in our country and we should find a way to address 
it.  
        I thank Ms. Nason for being here today and I look forward to 
working with the NHTSA in improving traffic safety in the 
Houston area and the rest of the country.
        Thank you Mr. Chairman.  I yield the balance of my time.

PREPARED STATEMENT OF THE HON. MIKE ROGERS, A 
REPRESENTATIVE IN CONGRESS FROM THE STATE OF MICHIGAN

        Mr. Chairman, thank you for holding today's hearing. 
        In recent years, Congress has, in a bipartisan way, worked to 
improve and rationalize the safety and efficiency of automobiles.  
We have done this in a number of ways, but most of them involve 
placing expanded responsibilities upon you.  Consequently, it is 
essential that NHTSA and this Committee work well together to 
advance our shared goals.
        One particular place where this Committee and NHTSA will 
need to work together carefully is on CAFE standards.  As you 
know, the CAFE program is intended to reduce America's 
dependence on foreign oil.  But, its effect has been to distort the 
car market, provide some companies with a competitive advantage, 
while punishing others. 
        As we work to improve the CAFE system, it is important that 
we make it a fair and equitable system.  The current system fails 
this test, and automakers in my home state of Michigan have paid 
the price.
        We also must be careful to avoid needlessly overloading the 
industry with arbitrary guidelines at a time where it is aggressively 
expanding the availability of a variety of  alternative fuel vehicles, 
and advanced technology vehicles like hybrids and advanced clean 
diesels. 
        Finally, as you discuss CAF� with your colleagues at NHTSA 
and with Members of Congress, I would encourage you to keep in 
mind the need for programs like the current credits for the 
production of alternative fuel vehicles.
        But most importantly, I would remind you of the importance of 
safety.  To that end, we must work cooperatively with all involved 
in the auto industry to improve road and auto safety.  In particular, 
we must continue to work to incentivize the deployment of 
advanced safety technology, and we must also work to make sure 
that we as a government are accurately measuring the effectiveness 
of this technology. 
        Mr. Chairman, thank you again for holding today's hearing.

        MR. STEARNS.  I thank the gentleman.  If there are no further 
opening statements, we welcome the Honorable Nicole R. Nason, 
Administrator, National Highway Traffic Safety Administration, 
and if you don't mind, you also might introduce Mr. Medford at 
some point who I understand is going to be with you and obviously 
we welcome his comments, too, in relationship to yours.  
        With that, we welcome your opening statement.  

STATEMENT OF HON. NICOLE R. NASON, ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC 
SAFETY ADMINISTRATION, ACCOMPANIED BY RON MEDFORD, SENIOR VEHICLE 
ADMINISTRATOR, NATIONAL HIGHWAY TRAFFIC SAFETY ADMINISTRATION  

        MS. NASON.  Thank you, Mr. Chairman and Ranking Member 
Schakowsky, for holding this hearing.  As you noted, 
Mr. Chairman, and you have noted, Congresswoman, there were 
over 43,000 deaths on our roads last year, 2.7 million injuries, 
$230 billion in costs to society.  The traffic crashes are the leading 
cause of death for people ages 4 to 34.  This is a very important 
position, and I am honored to have been given it by the President 
and have been confirmed by the Senate.  
        My goal as NHTSA administrator is identical to the agency 
that Congress wrote into law 4 decades ago: to reduce fatalities and 
injuries on our Nation's roads.  Last year when I was the Assistant 
Secretary of Governmental Affairs, having worked for several 
years with this committee and other committees in the Senate, 
Congress passed SAFETEA-LU, which is the most far reaching 
highway safety bill in a generation.  Among the provisions were 
tripling the amount of funding going to states to combat impaired 
driving, a scourge which claims nearly 17,000 lives a year.  
        This legislation aided our efforts to raise safety belt use rates 
by establishing a $498 million State incentive program.  We have 
already seen this program bearing fruit with Kentucky, Mississippi, 
and Alaska passing primary safety belt laws this year alone.  We 
were very heartened by that.  With SAFETEA-LU passed, NHTSA 
has its blueprint for the next 3 years, and the challenge now for the 
agency is to effectively implement that which Congress has 
enacted.  
        In addition to the implementation of SAFETEA-LU, I also 
believe that the most promising gains in highway safety are going 
to come from the crash avoidance technologies.  Today the 
technology exists not only to ameliorate the severity of the crash, 
but to help prevent it outright.  For example, imagine a car with a 
forward collision warning system that can detect when the vehicle 
in front of it has slowed or stopped.  This device can help prevent 
the most common type of crash, the rear-end collision.  And we 
have charts up that, with your permission, Mr. Chairman, I would 
like to leave up during the hearing.  
        Imagine a car with a road or lane departure warning device that 
can alert a driver when they stray from their lane.  This can help 
with detracted or drowsy driving.  Or a vehicle with a blind spot 
warning system that can signal to a driver when another vehicle is 
in close proximity.  Such a system could be invaluable on our 
congested interstates where changing lanes at high speeds is 
common.  
        As you noted, Mr. Chairman, crash avoidance technology, the 
agency believes, holds the greatest promise.  Electronic stability 
controls is proven technology that senses when a driver may lose 
control and helps to stabilize the vehicle.  ESC is especially 
effective in reducing rollovers.  Every year, 3 percent of crashes 
involve a rollover, and they account for a third of all occupant 
deaths.  We believe ESC could be the greatest safety innovation 
since the safety belt. 
        New safety technologies, Mr. Chairman, offer great promise to 
reduce the number and the severity of crashes.  But equally 
important to improving safety are the crucial roles of family and 
law enforcement.  We must not forget that safety starts with the 
family, and it needs to be at the top of every family's priority list.  
Parents still need to ensure that their children are in booster seats 
and adults need to closely supervise teen drivers, who are the age 
group most at risk for a crash.  And everyone needs to buckle up 
every time.  
        And we must continue to support law enforcement as they have 
the dangerous and often thankless job of protecting us from 
impaired and reckless drivers, and I would say that even if my 
father had not been the head of highway patrol when I was 
growing up and was not the chief of police in our county.  
        So thank you again for holding this hearing.  I look forward to 
working with you and everybody of the Subcommittee on these 
important issues.  
        And with your indulgence, Mr. Chairman, I would like to show 
a brief 2 minute video.  NHTSA did what we called it the 
naturalistic driver study.  We got 100 cars.  We put the cameras in 
the cars.  We had people volunteer for the study and we asked 
them to drive around with the cameras in their car for a year, and 
we have thousands of hours of footage.  And just a few minutes 
after people drove off the lots after having the cameras installed, 
they essentially forgot the cameras were in the car and they did 
things that people do when they are driving, which is what we 
wanted them to do.  So we have four 30-second snapshots.  
        The first frame here is the driver's face.  We have obviously 
pixalated their faces for the driver's privacy.  We are not trying to 
embarrass anybody.  
        The second frame is where I am going to ask you to focus, 
because that is the camera looking out the front of the car.  The 
third is obviously the driver's hand, and the fourth is the side of the 
car.  But I can narrate as we go since you can't see the driver's 
face.  
        We are putting this up to show there are technologies that can 
help.  This driver is going along in rush hour traffic in the morning.  
He approaches a car in front of him, slows down.  He slows down.  
He pulls away, the car in front of him pulls away.  It is just a 
regular morning for him commuting.  He becomes distracted.  You 
can't see his eyes now he is looking out the window and that is the 
air bag going off.  He is not impaired.  He wasn't drinking.  It was 
just a regular morning for him. 
        The second, once again, if you look at the top right-hand screen 
it is hard to tell, but the driver has the broken lane on the left and 
the solid lane on the right.  He is distracted and so you can tell the 
difference between where the two lines are.  And what will happen 
is he is getting there, you can see.  That is the guard rail which he 
almost crashed in to.  
        He was looking for something and became distracted.  We 
have hours of footage of people becoming distracted while they are 
driving by all sorts of things.  
        This driver, same situation.  I believe he went to sleep.  We 
unfortunately have a lot of footage of people falling asleep also.  
And you will see the same thing.  He goes right off the road and 
then wakes up, and if you could see the face, you would see that he 
startles back into the lane.  
        We have an almost endless amount of people nodding off.  And 
again, there are technologies.  There are alert systems that can help 
wake folks up the minute we see them going out of lane.  This is 
another rear end.  She is following along in traffic, driver slows.  
She slows.  Driver picks up, she picks up.  And you can't see, she 
is about to look off to the right and because the car has pulled away 
in front of her, she doesn't realize until the last minute at which 
point swerving off the road doesn't help her because even though 
she avoided the collision she still hit the pole.  
        So here I can--
        MR. STEARNS.  Was she okay?
        MS. NASON.  We had no fatalities.  No.  I wouldn't show that.  
        But I know it is grainy, and it is hard to see.  
        The point in us doing the study was to see how people actually 
drive and what they are distracted by, and unfortunately what 
happens to them when you can look away for just a second, and 
that is why twice you see the air bags go off in the corner.  I know 
it is easier to see if you have it on camera in front of you than it is 
on the screen, and we would be happy to show you.  We have lots 
of other footage if you are interested.  But these are a few 
examples of places where we think lane departure warning 
systems, lane keeping systems, forward collision alert systems 
sensors in the bumper, protections that could shriek at you if you 
are approaching the car in front of you too fast, you need to look 
back at the road, could be helpful.  And so I just want to show that 
as an example.  Thank you. 
        MR. STEARNS.  All right.  
        MS. NASON.  I will be happy to answer your questions. 
        [The prepared statement of Hon. Nicole R. Nason follows:] 

PREPARED STATEMENT OF THE HON. NICOLE R. NASON, ADMINISTRATOR, NATIONAL 
HIGHWAY TRAFFIC SAFETY ADMINISTRATION

        Mr. Chairman, thank you for holding this hearing on the 
National Highway Traffic Safety Administration's views on motor 
vehicle technology and the consumer.  
        Mr. Chairman, last year, more than 43,000 people died on our 
nation's roads, an additional 2.7 million people were injured, and 
the cost to society was a staggering $230 billion.  Traffic crashes 
are the leading cause of death for people ages 4 to 34.  My goal as 
NHTSA administrator is identical to the mission of the agency that 
Congress wrote into law four decades ago: to reduce fatalities and 
injuries on our nation's roads. 
        This is an exciting time to be leading NHTSA, because I 
believe we are on the cusp of a new era in highway safety, 
primarily for two reasons.  First, SAFETEA-LU, a statute written 
in part by members of this Subcommittee, is easily the most far-
reaching highway safety bill Congress has passed in a generation.  
Among the safety provisions in this bill is the tripling of the 
amount of funding going to the states to combat impaired driving, 
a scourge which claims nearly 17,000 people a year.  This 
legislation also committed the Federal Government to raise safety 
belt use rates by establishing a $498 million state incentive grant 
program.  This program is already bearing fruit, with three states, 
Kentucky, Mississippi and Alaska passing primary safety belt laws 
this year alone. And SAFETEA-LU codified a portion of 
NHTSA's Rulemaking Priority Plan, which will save thousands of 
lives by having the auto companies produce safer vehicles. 
        With SAFETEA-LU helping to guide NHTSA's course for the 
next three years, the challenge now for the agency is to effectively 
implement what Congress has enacted.  
        But we must and can do more.  
        Apart from the implementation of SAFETEA-LU, I believe the 
most promising gains in highway safety are going to come from 
the deployment of crash avoidance technologies.  Today the 
technology exists not only to ameliorate the severity of a crash, but 
to help prevent it outright.  Allow me to briefly describe some of 
these technologies.
        Imagine a car with a forward-collision warning system that can 
detect when the vehicle in front of it has slowed or stopped.  This 
device can help prevent the most common type of crash, the rear-
end collision.  Or imagine a car with a road or lane departure 
warning devices that can alert drivers when they stray from their 
lane.  This device can be especially useful in combating drowsy 
driving, which is a significant problem.  
        Imagine a vehicle with a blind-spot warning system that can 
signal to the driver when another vehicle is in close proximity.  
Such a system would be invaluable on our congested interstates, 
where changing lanes at high speeds is common.
        But the crash avoidance technology that I believe holds the 
greatest promise is electronic stability control (ESC).  This proven 
technology senses when a driver may lose control and 
automatically stabilizes the vehicle.  ESC is especially effective in 
reducing rollovers, one of the most deadly types of crashes, 
particularly for SUVs, which are high off the road.  Each year three 
percent of crashes involve rollover, but they account for about a 
third of all occupant deaths.  NHTSA estimates that ESC will save 
up to 10,600 lives annually when fully implemented into the fleet.  
ESC could be the greatest safety innovation since the safety belt. 
        In the past, NHTSA focused, and rightly so, on making 
vehicles more crashworthy, so that during a crash, an occupant 
would have a better chance of surviving or sustaining only minor 
injuries.   For after the crash, NHTSA pioneered and continues to 
champion our nation's emergency medical services, so more lives 
can be saved by rendering immediate aid to the crash victim.  But 
now we have the technology to focus on the crucial period before a 
potential crash.
        This is why I believe crash avoidance technology holds such 
promise.  I am confident that deployment in our vehicle fleet of 
one or more of these crash avoidance technologies, coupled with 
the unprecedented resources under SAFETEA-LU we are 
distributing to the states for highway safety, will translate into 
fewer crashes and more lives saved.
        Mr. Chairman, there is hardly a family in America that hasn't 
been impacted by a car crash.   But the landmark SAFETEA-LU 
law, coupled with NHTSA's regulatory authority to facilitate 
deployment of new safety systems, will make our roads safer by 
the end of this decade.
        Mr. Chairman, before I conclude my testimony, I want to shift 
gears and discuss two other issues under this Subcommittee's 
jurisdiction that are of importance to me.  First, fuel economy not 
only affects every American, but our national security as well.  As 
Members are aware, this Administration has raised corporate 
average fuel economy (CAFE) standards for light trucks for seven 
consecutive years, from 2005 to 2011.  These new fuel economy 
standards will result in a savings of approximately 14.3 billion 
gallons of fuel over the lifetime of these vehicles.  Most 
importantly, these standards were raised responsibly, without 
sacrificing jobs or compromising safety, by discarding the archaic 
"one-size-fits-all" standard and implementing an innovative 
attribute system based on the light truck's footprint.
        NHTSA has the expertise and the experience to reform CAFE 
for passenger cars, but lacks the statutory authority to do so.  
Chairman Barton has introduced a bill (H.R. 5359) to rectify this 
problem, and the Administration supports this legislation.  If the 
Department is given that authority, we will raise the fuel economy 
standards for passenger cars, and we will do so in a way that does 
not destroy jobs or disregard safety.
        Next, implementing the ENHANCE 911 Act of 2004 is of 
great importance to me.  While approximately 96 percent of the 
geographic United States is covered by some type of 9-1-1 service, 
it is estimated that less than half of the nation's Public Safety 
Answering Points (PSAPs) are able to receive both the cellular 
telephone number and geographic location of cellular phone 
callers, both of which are often necessary for emergency 
responders to quickly pinpoint the location of vehicular 
emergencies.  To help upgrade PSAPs to receive this critical 
information, the ENHANCE 911 Act of 2004 authorizes NHTSA 
and the National Telecommunications and Information 
Administration (NTIA) in the Department of Commerce to 
establish a national 9-1-1 Implementation Coordination Office 
(ICO) and to administer a grant program for PSAPs. 
        Moreover, as required by SAFETEA-LU, NHTSA is currently 
establishing the Federal Interagency Committee on Emergency 
Medical Services, which is strongly supported by our partners at 
the Department of Homeland Security.  We are also managing the 
Next Generation 9-1-1 program to facilitate the research, design 
and development of a technologically advanced 9-1-1 system of 
the future.  Finally, NHTSA's Fiscal Year 2007 budget requests 
funding and a full-time equivalent position to support the National 
9-1-1 Office at NHTSA that was authorized by the ENHANCE 
911 Act of 2004 and is operated in cooperation with NTIA.
        I commend the leadership of the House Energy and Commerce 
Committee, along with Representatives Shimkus and Eshoo, for 
establishing the E-9-1-1 program, together with the $43.5 million 
in funding for E-9-1-1 grants that NHTSA is due to receive in 
2008.  As emergency medical services are crucial to saving lives 
on our roads, as well as being a component in the War on Terror, I 
look forward to working with Members to ensure that NHTSA's 
EMS office continues to be a leader in the field.  Furthermore, to 
support NHTSA's systems, the Agency recently elevated the EMS 
Division to an Office in Traffic Injury Control, which affords a 
higher visibility and importance.
        Mr. Chairman, thank you again for holding this hearing, and I 
look forward to working with you and every member of this 
Subcommittee on these important issues.

        MR. STEARNS.  By unanimous consent, opening statements will 
be part of the record.  
        And the woman who hit the pole, was she saved by the air bag 
then?  
        MS. NASON.  Yes.  There were some injuries for some of the 
drivers but--
        MR. STEARNS.  How fast were these folks going, some of them.
        MS. NASON.  For that footage 35, I'll have to check.  I think it 
was --
        MR. STEARNS.  So it was not 80?  
        MS. NASON.  They were not speeding.  These were normal 
roads.  We had an example of a young girl who was dialing on a 
cell phone and just barely missed a child on the tricycle who came 
out the driveway.  I mean, it is such traumatic footage that 
everybody who sees it gasps almost simultaneously when they see 
it.  It happens.  People get distracted and that is what we are 
concerned about. 
        MR. STEARNS.  Let me, before we get into too much about this, 
the idea about this technology.  I want to ask you a question that 
since I have been in Congress always comes up.  We always hear, 
depending upon which side of the aisle you are on, talk about 
increased fuel economy with CAFE standards.  But at the same 
time, the National Academy of Sciences noted it will probably 
force companies to downweight and downsize vehicles which 
obviously ultimately is going to affect their safety, and we just saw 
movies on safety.  
        And I guess either you or Mr. Medford could give me maybe 
some statistical information or information to show us what the 
impact of downsizing these cars because they are trying to get fuel 
economy and the safety impacts that occurs as a result of this 
CAFE.  So I just need some substantive information on this and 
not just generalities, if possible.  Because I think all of us worry 
about the idea of moving the CAFE standard too quickly and what 
that is going to mean in terms of the vehicle safety.
        MS. NASON.  I apologize, Mr. Chairman.  Ron Medford is our 
Senior Vehicle Administrator.  He has been with NHTSA for the 
last 4 years, from the CPSC before that. 
        MR. STEARNS.  He is welcome to answer this question if you 
like.
        MS. NASON.  The issue that you raise is the very reason why 
we requested the authority to reform the program in the first place.  
This is why NHTSA has asked the authority to do the reform with 
passenger cars similar to light trucks.  This is why we are 
supporting the chairman's bill, because it gives the agency the 
authority to do the balancing of factors that we need to do to make 
sure that we don't have downsizing or downweighting, as you say, 
because it could have a negative safety impact.  
        So we need to look at safety.  We need to look at economic 
practicability.  We need to look at technical feasibility, and the 
need for the Nation to conserve oil.  These are all things that 
NHTSA would do if we had the authority that we do under the 
Chairman's bill to look at all of these factors, and then determine 
appropriate fuel level savings. 
        MR. STEARNS.  Then I guess the next follow-up question would 
be, are there technologies now that could be implemented and what 
are they without which would increase the fuel efficiency, but you 
wouldn't have to change the weight or the make up of the vehicle.  
I mean, you could just install these.  Are there technologies and 
what are they?  
        MS. NASON.  I was listening to Goss' Garage the other day, not 
to promote anyone, but--
        MR. STEARNS.  It is a very interesting program.  I don't know 
how they do it over the phone.  
        MS. NASON.  And they were talking about NHTSA's Web site, 
and one of things--I only say that to show it is not just NHTSA.  
There are other folks out there.  We are encouraging consumers to 
take a look at your vehicles if you want to improve fuel efficiency 
today which is obviously not--this is the CAFE changes are a 
long-term part of the President's agenda on energy, you can check 
your tires.  You can know your PSI and inflate them.  You can 
treat your car with a little more care and change your oil and still 
get better fuel savings.  
        So in the immediate term that is what we are promoting for 
consumers and given it is not just us, the Click and Clack.  There 
are other radio shows. 
        MR. STEARNS.  Those would be the obvious ones.  Are there 
any super technology items that could be done that are not being 
done now that you could retrofit your car to do.
        MS. NASON.  We don't encourage folks to retrofit their cars 
with untested technologies.  But if you look at the NHTSA studies, 
there are technologies.  Everything is very basic, from high 
viscosity oil, to better rolling resistance for your tires to 
hybridization, for example.  So there is a list and this is what 
NHTSA would be looking at, everything from simple to the most 
complicated if we had the authority to move forward. 
        MR. STEARNS.  Something you would do with the engine.  Is 
there anything?
        MS. NASON.  Hybridization, we wouldn't encourage consumers 
to try to do that themselves to the car, but there are things like high 
viscosity oils that we can look at. 
        MR. STEARNS.  My last question in this round is that how is 
NHTSA allowing the market and the consumer to promote safety 
technology through adoption and acceptance in the market?  The 
notion, of course, that safety sells.  How do you get that sort of 
concept to the consumer?  
        MS. NASON.  We agree that safety sells, Mr. Chairman, and I 
do think the consumer has been partially driving these issues.  I 
noted in my opening statement that we have a blueprint for our 
work for the next 3 years, in SAFETEA-LU, but one of the other 
issues that was not included is looking at our program and looking 
at a program whereby we can make changes and help promote 
some of these technologies that are out there to consumers.  Our 
NCAP program is a place where we might want to look at the 
GAO report and make suggestions, and work with the automotive 
manufacturers to try to see what they are doing and how we can 
get these messages out to consumers, because I do think safety 
sells, and if the consumers knew what technologies were out there, 
they might be more interested in asking about them, so that is 
something we are very interested in working on aside from 
meeting all of the requirements and SAFETEA-LU. 
        MR. STEARNS.  All right.  My time has expired.  
        Ms. Schakowsky.  
        MS. SCHAKOWSKY.  Thank you, Chairman.  I wanted to ask 
unanimous consent that opening statements of members who are 
not here are--including Mr. Dingell--put in the record. 
        MR. STEARNS.  Unanimous consent.  So ordered.
        MS. SCHAKOWSKY.  We had talked a bit about the Cameron 
Gulbramsen Kids in Car Safety Act.  One of the requirements in 
that bill would be auto reverse technology for power windows, and 
while I think it is an advance that in the SAFETEA-LU bill, there 
the switch design is changed, I wondered how we can move along 
the issue of the auto reverse.
        MS. NASON.  Well, as you know, Congresswoman, as we 
discussed, we are moving ahead on the other required rulemakings, 
including rocker switches, and we have a rule out that came out in 
April.  We have done some work, NHTSA has done some work on 
auto reverse.  I think if you look at European countries, for 
example, some of them, there are some requirements on auto 
reverse.  
        MS. SCHAKOWSKY.  Eighty percent of the cars in Europe have 
auto reverse features.  I drive a Ford Focus.  I have 4 little 
grandchildren.  My windows don't have auto reverse and it is a, I 
guess it is a standard feature on the European model.  So obviously 
it is possible to fairly easily make that available.
        MS. NASON.  I don't disagree that the technology exists or it is 
deployed in Europe but it is a question what would the technology 
be used for and that is something we need to look at.  In Europe, it 
is essentially protecting pinched fingers.  Not that it is technology 
that would be designed to help a child who had their head stuck.  
We think the switches are actually a much better way to resolve 
that problem.  And that is why we moved forward on the mandates.  
But we have discussed this a little bit, and I would need to talk to 
our engineers a little bit more about further analysis of that, 
because the initial review of that technology didn't seem to 
respond to the problem that you were interested in, which is 
children who were getting their heads caught.  It is not that quick.  
It is not like a garage door opener as you had talked about earlier.  
        And so I would like the opportunity to talk to our engineers a 
little bit more about what testing they have done and what their 
concerns are with it and what we can do moving forward with you.
        MS. SCHAKOWSKY.  I would like to hear about that, because I 
can't imagine any reason why it wouldn't be like a garage door--I 
mean as quickly responding as that.  
        I wanted to also in--the issue of driver distractions.  Those 
films are compelling and your charts are important, but when 
exactly are we doing to address the problem of driver distraction 
and all the different technologies and what can we expect in the 
short-term.
        MS. NASON.  One of the things that I have asked our folks as 
we have been moving forward on this and our advanced crash 
avoidance technology initiative is to make sure there are no 
unintended consequences.  The last thing you want to have in a 
vehicle is one that beeps and whistles and shrieks so much that the 
driver either ignores or becomes distracted by the technology, 
which I think is something we need to be very careful about as we 
move forward, and I don't mean to say that we are not enthusiastic 
about these new technologies.  We are.  
        But that is why we want to work with the auto manufacturers 
and the suppliers rather than come out and mandate them right 
away, because we have to see how it works with driver behavior.  
At the end of the day, it is the driver that matters.  And so that 
is one of the things that we are going to look at separately as we 
move forward on our initiative is what are the current distractions.  
We know cell phones, one of the things we saw in the study is that 
people who are reaching for falling objects tend to be much more 
distracted even than people who are talking on the phone.  
        So folks who have their purse spill forward or they are about to 
drop coffee on themselves will completely look away from the 
road to catch themselves and to block themselves and then they 
have a crash.  So it is not just new technologies.  There are other 
distractions obviously, and this study has been extremely helpful in 
showing us how people actually act in the real world, and that is an 
initiative that we are going to work on with the manufacturers 
going forward.  It is driver behavior.
        MS. SCHAKOWSKY.  Let me just point out--I see my time is up-
-that actually NHTSA held a major conference in the late 1990s on 
the issue of driver distractions, talking about that.  So I am hoping 
we are not back here in another 5 years or 10 years or whatever, 
having the same conversation.
        MS. NASON.  I agree.  I do think that we have got a lot more 
distractions since then.  So we are going to work on that moving 
forward.  
        MR. STEARNS.  Mr. Barton.
        CHAIRMAN BATON.  Thank you.  I am very happy to see you in 
the position and I wish you the very best.  
        I am a perfect example of somebody who needs every 
technology break you can get.  I was driving down the road 4 years 
ago to an event for my son, who was running for Congress, on a 
road in Texas at 10:00 in the morning, and missed a turn and 
reached in the back seat to get the map to figure out the next road 
and when I reached over to get the map, I ended up rolling the car.  
I mean, it rolled every way it is possible to roll.  It was going this 
way and this way and this way.  
        So I was in a three-axis spin, and luckily I ended up in a ditch, 
a sand ditch in some bushes that were very soft and the car was 
upside down, backwards, but I walked away with a blood pressure 
level that was over 200 and one scratch on my back.  But I mean, I 
did everything wrong you were supposed to do and yet the Lord 
was looking out for me.  So if you can help the Lord, I would 
appreciate it.  
        MS. NASON.  At the moment, I hope He is helping me.
        CHAIRMAN BATON.  I have got two questions for you.  
        One is a provision that we passed that requires there be a 
review of CAFE to see if there is a better way to do it.  
Mr. Markey, I think, rightfully pointed out that there are three 
different sets of books out there, and what we really need is 
something that replicates the real world, and the current CAFE 
system really doesn't do that.  And then secondly, we also have a 
requirement in the energy bill from last summer that your agency 
will give us a report in about 3 weeks on the feasibility of 
significantly reducing fuel use by a date certain, and I think it is 
2014.  Can you comment on those two issues?  
        MS. NASON.  Yes, Mr. Chairman.  Thank you.  
        As you know, the legislation that the Administration sent to 
Congress asked for the authority to reform the CAFE program for 
passenger cars using an attribute system which is simply what we 
did for light trucks.  I know this committee has a study in there 
asking us to look at two-fleet rule.  There have been some 
suggestions that passenger and light truck CAFE should be 
combined going forward.  
        We are doing the report as required and we should have that up 
here next month.  
        CHAIRMAN BATON.  I think the official date is August the 6th.
        MS. NASON.  We are going to meet the deadline.  
        But what we have asked for is the authority to reform the 
passenger car program as we did with light trucks and give it a 
chance to be implemented before we look at some of the larger 
changes to CAFE.  This will be a very significant undertaking for 
the agency.  I don't want to understate.  It is 30 years, and we have 
never done the reform before so this will be a significant change to 
the CAFE program, and then I think after we implement, and of 
course, we are in court right now on the light truck rule, I think all 
of the cases were recently combined in the Ninth Circuit.  And to 
see how that works out and then we would be interested in 
discussing some of the larger issues.  
        CHAIRMAN BATON.  Thank you, Mr. Chairman.
        MR. STEARNS.  I thank my colleague.  
        Mr. Gonzalez.  
        MR. GONZALEZ.  Thank you very much, Mr. Chairman, and 
welcome to the Administrator, and I enjoyed our visit with you and 
Mr. Harrington and at the outset, I need to tell you that initiative I 
brought up with you regarding trucks, which I believe that you are 
more concerned with passenger vehicles, but when it comes to 
trucks and buses, would that be, and I always have to look at this, 
and I apologize, the Federal Motor Carrier Safety Administration 
that would be in their purview; is that correct?
        MS. NASON.  Well, both, but we do have some authority over 
buses and trucks, so it would depend on the issue.
        MR. GONZALEZ.  We will follow up on it.  It is along the lines 
of what you are proposing here for passenger vehicles.  But my 
question really, and we weren't going to talk about CAFE that 
much, but obviously we will.  And I will touch on that in a minute.  
        But in considering any of these technology changes and 
mandating these on our vehicles that are sold in the United States, 
the same factors or considerations come into play that it pretty well 
stymied and paralyzed meaningful modification or changes to 
CAFE standards.  
        Let me just read something from staff's memo in reference to 
CAFE standards and the consideration or factors that I think apply 
across the board.  Any time that you are going to change any kind 
of standards, and this is regarding CAFE, but let us just apply it to 
what you are proposing here.  And that is it is a must balance 
technology:  feasibility, economic practicability, and the effect of 
new standards on the economy.  
        How do you actually weigh that?  We are really talking about 
all of these on-board technologies and such, and the electronic 
stability and such, how willing--do we have an industry out there 
that would be willing to adopt these particular standards?  I mean, 
are these just more or less pie-in-the-sky ideas is what I am really 
asking.
        MS. NASON.  I don't think they are at all, Congressman.  In 
some cases, NHTSA will use its regulatory authority to mandate 
these technologies.  Electronic stability control, which is up over 
road departure, is a technology that we will mandate.  Because we 
have looked at the costs and we have looked at the benefits, and it 
is just so dramatic.  In some other cases, they may not be ready to 
be mandated because of some of the issues I was raising with the 
Congresswoman earlier, which is driver behavior.  A technology 
like ESC is ideal because it is a system of sensors.  It is under the 
car.  The driver doesn't have to do anything.  There is almost no 
interaction.  
        The car senses that you are oversteering, or you are coming and 
it brakes individual tires, which the driver can't do.  It is 
technology.  The driver simply can have no impact on.  And so we 
do think that is the ideal technology where it doesn't distract the 
driver.  It simply helps in the case of an emergency.
        MR. GONZALEZ.  I agree it is curious because it is application 
to the huge tractor rigs and buses that is fairly ignored, and I think 
the greatest studies right now are trying to monitor fatigue in the 
drivers and how you keep tabs on that without looking into the 
preventative aspects of it that you are doing.  So I do commend 
you.  
        I have one particular question.  I don't believe we have it, 
anyway, if we do, I am in violation of that particular law, in Texas, 
we don't have any prohibition against the use of cell phones.  
Don't get me wrong.  I love cell phones and BlackBerrys.  And 
how many of us out there are actually using these things as we 
drive?  
        Are you aware of a recent study that basically not necessarily 
equates it, but actually found that the use of a cell phone is more 
distracting to somebody in their ability to operate a vehicle than 
somebody who might be under the influence?  
        MS. NASON.  Yes.  I am aware of the study.  We haven't 
looked at it and we haven't looked at their data, which is 
something we would need to do.  So I can't necessarily say that I 
agree with their conclusions.  
        We don't want either distracted or drunk drivers on the road.  
So from NHTSA's perspective, either problems are ones that we 
are very interested in tackling.  
        On the truck issue, just if I can point out we are looking at ESC 
on trucks and so if that is what your constituent is interested in, I 
would be happy to follow up with him.
        MR. GONZALEZ.  Secretary Mineta did respond to me.  He says 
since this doesn't monitor fatigue and such, this is not what we are 
looking at at the present time.  So that was somewhat disconcerting 
to me.  If you have ever been on H-35 in Texas, it is incredible 
because the trucks have basically taken over and safety is 
paramount, obviously, to my constituents in the area. 
        The last question, it is an interesting one, and I really mean this 
in good faith, because I think we have to be realistic when we start 
altering CAFE standards and the time probably has come, yet we 
have to be realistic.  
        In something I discussed with you yesterday, and I posed to 
Secretary Mineta when he was here, my concern has always been 
that even the test in attempting to measure a vehicle's mileage or 
efficiency is totally flawed.  And I think yesterday in our 
discussion, you may be aware and I asked you well who sets that.  
I already know that it is EPA because Secretary Mineta told me it 
was EPA.  What is your relationship with EPA?  If you are the 
agency that is charged with that responsibility, wouldn't you want 
the underlying test to give you accurate information and data?  
        I mean, and I don't recall exactly, but it is totally ridiculous not 
a real whirl test, and I forget if they drive a vehicle at 48 miles an 
hour for a couple of miles to arrive at that, a Hummer gets 20-plus 
miles on the highway.  
        Are you familiar with the specifics of the test, and is there 
anything that you could do to open that dialogue with EPA, 
because I know they are considering changing it, but I haven't seen 
anything yet.
        MS. NASON.  They are.  I mean, I do know that EPA is working 
on making changes to the tests and there have been repeated 
complaints from consumers, which has been part of the problem 
that the fuel efficiency they expected to get they are not getting, 
and this is why EPA is looking at this.  
        I would have to go back and talk with them, and I would be 
happy to do that, to reach out to them to see where they are in their 
testing process.  I am not sure of the date which they are coming 
out with their new requirements unless--do we have any--well, I 
know they were reaching for the end of the year, but I don't know 
what their date is, or if they have actually set that for a date, but I 
would be happy to check.  
        MR. GONZALEZ.  It is something that we discussed yesterday, 
and that is something that the Chairman also alluded to that is as 
we arrive for CAFE standards, the potential impact for choice 
among the consumer and I, and the way I understand that 
especially, if you are from Texas, and people drive huge trucks and 
the truth is we will have a plant there in San Antonio very soon, 
how do you alter that behavioral pattern where people just feel 
safer in a bigger car or a truck?  
        MS. NASON.  Well, part of the way to do it is to have 
technologies like ESC on all vehicles and promote that for 
consumers.  I recently bought a new vehicle, and the salesman 
didn't mention any of these things to me.  I had to raise them to 
him.  So it is a little bit of chicken and egg for a consumer getting 
the information out there and encouraging them to ask.  
        If we were to have the authority to reform for passenger cars, 
we would do the balancing of all of the factors, but we certainly 
need to be mindful of consumer choice, and we have to be mindful 
that we don't have a negative impact on jobs or the economy, and 
so those are all things that we would have to look at.  It would be 
very complicated rulemaking.  
        MR. GONZALEZ.  I think I went over.  Thank you very much. 
        MR. STEARNS.  Go ahead.
        MR. GONZALEZ.  It is just, you know, Mr. Chairman, I think 
that it seems that we never have a realistic discussion about it, 
because we are so afraid of the impact on the domestic auto 
industry where we know the profits are made on the bigger 
vehicles, and that is very realistic, especially on this side of the 
aisle and such, and on the other side of the aisle, but nevertheless, 
we seem that we always will be paralyzed because the industry.  If 
I was in charge, I would be adverse to change also.  
        Change is costly, and sooner or later has to be made.  But I am 
just truly concerned that we never really move forward on it 
because we have set all of those factors in play, and I am afraid if 
we consider every one of those factors, we never will make any 
substantial change. But I appreciate your good faith efforts and 
look forward to working with you in the future. 
        MR. STEARNS.  I thank the gentleman.  
        The gentlelady from Tennessee. 
        MRS. BLACKBURN.  Thank you and welcome.  I am glad that 
you are here. 
        And Mr. Chairman, it is always good to continue these 
discussions.  
        As we look at legislation and CAFE standards and safety, 
consumer safety and having auto manufacturers in my district--
Nissan, Saturn, some Toyota present, a lot of employees from 
Primus--this is something that we hear quite a bit about.  I had a 
couple of questions about CAFE standards, but I think we are 
pretty much there, and with that issue, we could debate it to death.  
There are those that come down on all sides of that, and it is very 
difficult to change and then there is a lot of debate out there about 
whether trying to get those standards too low has a real impact on 
safety and injury and that is what Mr. Gonzalez was just speaking 
of.  
        And so I would like to hear your take just as we finish his 
discussion, even though he has left, where do you come down on 
having the CAFE standards set by Congress or set on sound 
science?  
        MS. NASON.  Well, as you know, the Administration has 
requested the authority to do a reform for passenger car CAFE, and 
we would base it on sound science.  The Congressman raised the 
concern that you can do a balancing of factors forever and never 
move forward, and I think the agency has shown that we can 
balance the factors and still move forward.  We were very proud of 
the light truck reform.  And so we do think that the science-based 
approach is best.  
        MRS. BLACKBURN.  I encourage you all to be maybe a little 
more vocal.  I think of the education process you just alluded to 
when you went to buy a car of your own.  
        Talking a little bit more about the sound science that is behind 
the decisions that you would make, I have got just one question 
that I want to go to with you and it, the two-fleet rule.  Looking at 
that, in 2001 there was the National at Academy of Sciences study 
that talked about eliminating the two-fleet rule and talked about a 
global marketplace basically having--
        MR. STEARNS.  I think your mic went off.
        MRS. BLACKBURN.  I have such an electrifying personality that 
I am blowing all of the fuses.  
        So anyway, I have got an article that had run back in May out 
of Tennessee, and it was talking a little bit about Nissan and the 
manufacturers in my district, Saturn, Nissan, and how pretty much 
their parts are coming from all over the world and component parts 
of the parts that are being made or assembled by our tool and die 
manufacturers are just-in-time suppliers, but you now have a 
global marketplace, and I thought that this article was very well 
titled.  It is "Automakers Parts Quest Is One Without Borders."  
And I thought that was really very good.  
        So talk for just a minute about the two-fleet rule.  Is it time to 
eliminate that, and then give me some specifics, and if you need to 
submit these, as to something you have, there again, solid science 
or evidence as to why you would eliminate that.  
        MS. NASON.  Congresswoman, I agree with you that the NAS 
study made a study about eliminating the two-fleet rule that it had 
served its usefulness.  I don't, from the Administration perspective, 
we looked at that and that was not part of our proposal that we had 
submitted.  I think for the same reason that I said when I was 
speaking to the Chairman, we just reformed the light truck rule.  It 
was a significant rulemaking for the agency.  We did an advanced 
notice of proposed ruling, so we went through several 
opportunities for notice and comment from folks because there was 
such strong interest.  
        And we have requested the authority to reform for passenger 
cars based on that same rulemaking that we did with light trucks.  
So it's an attribute-based, science-based reform.  
        And I think that we would rather have the opportunity to 
implement, do this rulemaking, which will take some period of 
time to do.  We have to get the product plans, and we have to study 
them, and we have to add the technologies and do the weighing of 
all the factors that we had discussed and implement that.  And in 
the meantime, slog it out in the courts on the light truck rule, which 
we have had several lawsuits filed for a variety of reasons.  So we 
have consolidated those.  And then discuss some of these other 
issues.  That is our preference to how to move forward on this.
        MRS. BLACKBURN.  What about cars that are made in Canada 
or Mexico?  
        MS. NASON.  Again, we haven't proposed changes to it.  There 
are lots of suggestions in NHTSA; CAFE credits is another 
suggestion, for example, where they thought it might be very 
beneficial.  The Administration looked at that.  We did not propose 
that as one of our options because we would like to reform the rule 
first and then move forward on some of these others proposals.
        MRS. BLACKBURN.  Do you think it is appropriate that cars 
made in Canada and Mexico can be considered part of the 
domestic fleet?  
        MS. NASON.  It is just the way it is written now, so, in NAFTA 
so, we have made no suggestions for any changes to that.  I just 
want to be clear. 
        MR. STEARNS.  Mr. Markey. 
        MR. MARKEY.  Thank you very much, Mr. Chairman.
        Are you going to make any recommendation for what the 
CAFE standards should be 10 years from now or at some other 
point in the future, so that there can be a goal that is 30 miles per 
gallon, 33 miles per gallon?  Is there any goal that the 
Administration is going to name that our country should reach?  
        MS. NASON.  Congressman, as you know, I was here as the 
Assistant Secretary when the Secretary testified before this 
committee on this issue.  The Administration's position hasn't 
changed from that hearing.  We prefer the authority to reform the 
program rather than simply select a number. 
        MR. MARKEY.  Well, I think the problem is that the goal, the 
goal the Secretary laid out here in terms of how much time he 
would need to study it was essentially it would end in January of 
2009, just as this Administration was ending, which would be 
8 years of doing nothing.  And I think that I understand why the 
White House would choose that.  But I think the consequences for 
our country would be very negative. 
        Now, yesterday, the EPA issued a report indicating that the 
fleetwide average fuel economy today is actually 5 percent lower 
than the peak fuel economy reached in 1987.  You have said that 
you want to increase it, but what the EPA report also says is that 
the average fleet fuel economy is actually only about 21 miles per 
gallon.  And Consumer Reports tests demonstrate that even that 
number overstates what drivers actually experience on the road.  
The numbers NHTSA uses to calculate fuel economy compliance 
credits the fleet with an almost 25 miles per gallon average.  Some 
experts have said that for some models, NHTSA fuel economy 
compliance numbers overstate the real world on the road average 
by as much as 50 percent.  
        Would you support a legislative requirement to ensure that 
NHTSA numbers used for CAFE compliance be the same as the 
on-road numbers measured by EPA so there is one set of books?  
        MS. NASON.  Well, for example, we use the Department of 
Energy's fuel numbers for pricing of fuels when we did the CAFE 
rulemaking for light trucks.  So we do work closely with other 
agencies.  I think there is one thing, and I don't disagree with the 
EPA, but the fleet has changed a little bit.  More and more people 
because of consumer choice are driving larger vehicles than they 
were when the CAFE standard was put in place.  I think that has an 
impact.  
        MR. MARKEY.  Right now, NHTSA has one--NHTSA says 
let's just say for the sake of discussion that a Chevy Impala gets 
28 miles a gallon on average.  EPA would say, well, it only gets 
25 miles per gallon when we actually take out the 15 percent.  And 
then Consumer Reports says, well, actually it only gets 23 miles 
per gallon when you actually drive it on the road.  So you can't do 
anything about Consumer Reports, but what would you think of a 
suggestion that the EPA number and the NHTSA number be the 
same number?  Why have this phony number on a sticker or a 
phony number at NHTSA?  One of the numbers is phony.  Either 
the number at NHTSA is phony or the number on the dashboard is, 
or where you're buying the car from is phony.  But they both can't 
be accurate.  One of them is accurate, and one of them is 
inaccurate.  Which one do you think is inaccurate, the NHTSA 
number or the EPA number?  
        MS. NASON.  I think that one of the reasons the EPA is doing 
the reform to their tests is because they have had complaints from 
consumers about the number--
        MR. MARKEY.  What I am asking is, do you think we should 
just use the EPA number?  How are we going to have one set of 
books that the whole country works off of in terms of what the 
average is for that car and as a result of the whole fleet?  That is 
my--
        MS. NASON.  I think we would agree with you, Congressman, 
that we don't want consumer confusion, and so I would be happy 
to go back to my colleagues at EPA and talk to them about this 
issue. 
        MR. MARKEY.  Well, as you know, again, manufacturers can 
get a CAFE credit of up to 1.2 miles per gallon for each of their 
fleets, foreign, domestic, car and truck, by spending $50 to $100 to 
build cars that can run on both ethanol and gasoline.  But almost all 
of them run on gasoline. 
        This has the effect of further eroding the actual fleet average 
for fuel economy levels.  Would you support a legislative 
requirement that ensured that CAFE credits were only given to the 
fraction of those flex fuel vehicles that were estimated to have used 
ethanol in the first place?  Wouldn't that be a greater incentive to 
build out an ethanol infrastructure so that consumers could actually 
choose to use it?  
        MS. NASON.  Again, Congressman, as we talked about it, I 
think this is a, it is a chicken-and-egg problem.  Consumers have 
vehicles that they can use alternative fuels for, but they don't have 
access to the pumps to put the fuel in, let's say E-85, and that is 
something that we certainly would want to encourage.  
        MR. MARKEY.  So the credit system has been in place since 
1988.  And it is obvious that it just hasn't worked up until this 
point except to the extent to which it decreases the requirement for 
the auto industry to meet the overall fleet average to back out oil 
that we are importing from the Persian Gulf.  So don't you think it 
makes more sense just for this fleet of vehicles to only get the 
credit for the ethanol that is consumed rather than credit for, in 
other words--you can have a car that actually only gets 24 miles a 
gallon, and you can pretend that it, because it is a flex fuel vehicle, 
let's say Mercedes, let's say Mercedes makes a big vehicle that 
only gets 23 miles a gallon, but because it is flex fuel, it says it is 
41 miles per gallon, even though that vehicle never uses ethanol, 
but it is flex fuel.  In other words, they have changed the hose, and 
they have changed the tanks, so now if you are spending a hundred 
bucks, you are getting this huge gap that is opened up even though 
the car never uses flex fuel.  So does it make any sense in other 
words for this, again, fraud or deception to be perpetrated on the 
American people in terms of how successful our country is in 
moving towards better fuel economy?  
        MS. NASON.  I think we just see it differently, Congressman.  
We do see it as an encouragement to use alternative fuel vehicles.  
And if there were more stations available, I think more folks would 
be taking advantage of the option to use the alternative fuel.  
        MR. MARKEY.  Who is it an encouragement to?  
        MS. NASON.  The manufacturers.
        MR. MARKEY.  The manufacturers. 
        MS. NASON.  Right, to produce more vehicles which can use 
flex fuels which I believe they are doing, but we have less 
infrastructure--
        MR. MARKEY.  But the total cost to build a flex fuel car is only 
$100, so if all you have to spend is a hundred bucks to change the 
gas tank and to put in some new hose, why wouldn't you take 
advantage of that if you are an auto manufacturer and you didn't 
want to make your whole fleet more fuel efficient?  That is a very 
small price to pay, and that is what they have been doing even 
though there is no evidence in the real world that we have been 
seeing any, you know, so you wind up with a net reduction in the 
fuel economy because it is a deceptive number that the auto 
manufacturers are able to use.  Do you dispute that, that it only 
costs a hundred bucks to convert a car to flex fuel?  
        MS. NASON.  I don't know honestly, Congressman.  I would 
have to check. 
        MR. MARKEY.  All the experts basically are saying that.  So, 
again, I have a--again, I just want the books.  I am just afraid we 
have Enron accounting when it comes to this, that it is a wholly--
and we are seeing now this massive fraud of stock options out in 
Silicon Valley, and I am just afraid it spreads totally into this 
whole area of fuel economy standards, and the numbers are just 
totally phony and that it misleads the American people, that it is a 
deception on the American people.  You didn't set up the system, I 
know that, Ms. Nason, but it is time for us to reform it so that the 
numbers make sense and that we have real numbers that people are 
using.  Otherwise, it is just, Arthur Andersen might as well be 
doing the books for the Federal government in terms of what the 
consumer actually sees.  And I think it is wrong, and I thank you, 
Mr. Chairman. 
        MR. STEARNS.  I thank the gentleman.  
        Mr. Green. 
        MR. GREEN.  Thank you, Mr. Chairman.  
        Welcome to our committee, Ms. Nason.  Last year, your 
predecessor mentioned that NHTSA would review Federal motor 
vehicle safety standards on a 7-year cycle.  Does this have a 
document outlining which standards will be reviewed and when?  
Is that something that is going to be continued?  And can you give 
the committee that information?  Do you know if those standards, 
if that is part of the continued commitment?  
        MS. NASON.  Sure, Congressman, thank you.  
        He was referring, I believe you are referring to the rulemaking 
priority plan that NHTSA had put together which we will be 
updating again later this year.  We need to look at--obviously, 
SAFETEA-LU had an impact on that because we have mandated 
rulemakings that will take priority, Congressional mandates will be 
priority.  So that is our first agenda.  But we will be looking at the 
rest of the rulemaking priority plan to see whether or not we need 
to make some changes there. 
        MR. GREEN.  And you can share that with the committee?  
        MS. NASON.  Absolutely.  I would be happy to.
        MR. GREEN.  NHTSA reported that motor vehicle crashes are 
the leading cause of deaths among Hispanic ages 1 through 34.  
Can you comment on these specific proposals, and I would be 
interested, is it also the number one for Anglos or 
African-Americans in that age group, or is it just Hispanics?  Are 
you familiar with those numbers?  
        MS. NASON.  Well, motor vehicle crashes are the leading cause 
of death for Americans 4 to 34. 
        We have target groups where we have more at risk, the 
populations like teens, and Hispanic young men are a group that 
we have as a target population, because they are less likely to wear 
seatbelts, because they are more likely to speed.  And we have 
begun an outreach campaign in Spanish.  We are using, for 
example, during the World Cup, we used some of the players to 
message to particular communities in Spanish.  I did the 
introduction.  I do not speak Spanish.  I speak French.  It is not 
very helpful in this case--
        MR. GREEN.  Maybe in the finals of the World Cup. 
        MS. NASON.  Reaching out to this community because we think 
that, with the right messaging, we can really encourage safer 
driving, and in some cases, there are mothers who firmly believe 
that the best place for a child is in their lap when they are driving.  
And it is simply a question of education.  One of the things that we 
did that we found was very helpful was to have car seats blessed.  
And it mattered to some of these parents that a priest from their 
community would bless the car seat and say, this is just as safe as 
you holding the child on your lap.  And parents were willing to put 
their children in car seats.  So it is a question of education to some 
of these groups who have come from areas where they are familiar 
with it. 
        MR. GREEN.  So there are specific proposals. 
        MS. NASON.  We are absolutely targeting. 
        MR. GREEN.  We do car seat programs where we partner with 
General Motors and Chevrolet and provide car seats to--I have 
never had a thought about blessing them because we have a lot of 
people who come to get the free car seats.  And because they are, 
when they are available, and also to update them.  So that is a big 
issue for children.  But I did not know that, technically, Hispanics 
males were not wearing their seatbelts.  I found it more in our area 
it is the older population who still object to wearing seatbelts and 
not the younger.  But I would love to see some of those, if you can 
share them. 
        MS. NASON.  We have a lot of data.  I would be happy to show 
it to you.
        MR. GREEN.  We need to do that in Texas.  I was so happy our 
numbers have gone up for seatbelt usage because we have a history 
of not wanting to do it.  But we do have seatbelts on our pickup 
trucks, and they need to be used. 
        MS. NASON.  Yes, you do. 
        MR. GREEN.  Thank you, Mr. Chairman. 
        MR. STEARNS.  I thank the gentleman.  
        I think we are almost done.  But I was going to ask with your 
indulgence a few more questions here. 
        And maybe following up a little bit with what Mr. Markey 
mentioned, the protocol that the EPA uses for testing, isn't that 
about 15 years old?  And wouldn't it be advisable that they 
recommend that they update that test protocol?  
        MS. NASON.  I am really reluctant to speak for EPA, Mr. 
Chairman.  As I have noted, I will be happy to go back and talk to 
them more about this issue.  I trust them to do their work and I--
        MR. STEARNS.  And consumer groups come up with their 
evaluation of the EPA, and then don't you come up with your own 
evaluation, too?  
        MS. NASON.  I am sorry, our evaluation for--
        MR. STEARNS.  Do you just take the EPA's number, or do you 
adjust those off it?  
        MS. NASON.  I think we work with them. 
        MR. STEARNS.  You adopt those, too--
        MS. NASON.  Sure, just as we use the energy fuel numbers. 
        MR. STEARNS.  Mr. Markey indicated you have your own set of 
numbers, which I didn't understand because as far as I knew you 
used the EPA--
        MS. NASON.  We do use the EPA, yes. 
        MR. STEARNS.  We marked up a CAFE standard, Mr. Barton's 
bill, and we included a study in it dealing with the two-fleet rule.  
And I suspect that if we could have passed it out of the House to 
do away with the two-fleet rule, and obviously, this bill that we 
passed is sort of tied up right now, but it just shows you, a lot of 
people understand now with North American Free Trade, the 
NAFTA thing, that the two-fleet rule might be outdated.  I don't 
know.  Would you say that there is a consensus at NHTSA that the 
two-fleet rule still should remain in place or not?  
        MS. NASON.  I can say at NHTSA that we would be very 
pleased to do the study that you have included in the Chairman's 
bill if that becomes law. 
        MR. STEARNS.  I've got an article here dealing--which is I think 
of some interest to a lot of us--with these event data recorders.  
And it was talking about this gentleman in St. Paul, Minnesota.  He 
has a gadget in his car, and his wife's car, too.  And because of it, 
the Progressive Group insurance company is giving him 15 to 
20 percent less insurance premium.  And it tracks every speed and 
everything.  The gadget is smaller than a deck of cards, records 
when and how fast and how far he drives.  His wife, Megan, does 
the same with her car.  If they drive it at a consistent level without 
incident, they can save up to 20 percent and so forth. 
        I guess a question is, do you think these event data recorders 
are advisable?  Is there any national uniform standard that you 
have looked at to say that they should be incorporated, or is this 
just an isolated case that they are working off, not a standard, 
anything you had to do with?  So I guess, how is NHTSA involved 
with this new tracking device that insurance companies are giving 
discounts for?  
        MS. SCHAKOWSKY.  Would the gentleman yield for a second?  
NHTSA issued a proposed rule on event data recorders in June 
2004, and it has been 2 years, and there has been no final rule 
issued.  So I would join the Chairman in asking what is holding up 
the rule, and what is the current status, et cetera?  
        MS. NASON.  I am looking at the rule.  We are looking at the 
comments.  I think that there are true legitimate privacy concerns.  
On the other hand, NHTSA is an agency that relies on data.  We 
are a data-driven science-based agency.  So information like that 
contained in event data recorders can be very valuable to the 
agency.  So we would be moving forward with a final rule shortly. 
        We have also said that the information contained in the EDR, 
which as I know you understand, only collects a few minutes of 
data before a crash.  That is why it is an event data recorder.  It is 
not a black box in the sense that it records the driver talking, the 
seconds before a crash, and that could be very helpful to the 
agency, why we would like to have the data.  We always said it 
belongs to the owner.  I don't think we have ever used it without 
having the permission of the owner.  But we would like to use the 
data to do the study.
        MR. STEARNS.  Does that mean people can go out and 
manufacture these and sell them, and there is no national standard?  
        MS. NASON.  I think they are in a large percentage of the fleet. 
        MR. MEDFORD.  I think the reference to that article goes 
beyond the data recorders that manufacturers are installing, and 
they are after-market greater data collection activities than the 
EDRs that we are talking about that are installed voluntarily by 
manufacturers today.  It appears that way to me anyway, although I 
am not certain.  I have not seen the article. 
        MS. NASON.  We will do a final rule.  
        MR. STEARNS.  So I guess the question would be, when is the 
final report?  You can't really give us a date then, but you say you 
will get it done, so the next question would be, what will be the 
results of the final report?  What do you think?  I mean, it doesn't 
seem to be rocket science here.  Are you going to set up a national 
standard?  I guess that is the question.  
        MS. NASON.  Well, the proposal that we had put out for 
comments said that if you are including these in your vehicles, here 
is a uniform set of data points that the agency would like to see 
collected. 
        MR. STEARNS.  Collected, okay.  On the privacy standpoint, I 
guess it is people don't want their privacy, that they drive fast or 
that they had an accident and this might be recorded somewhere, 
but of course there is a police report anyway, so--
        MS. NASON.  Right. 
        MR. STEARNS.  So I am not sure.  But if the insurance 
companies start to give discounts like that, I think a lot of people 
would say, why not?  Why not do it?  So I urge you to get the 
report completed. 
        In line with that, and this is my last question, is the electronic 
stability control, the ESC, is that a technology like this that can be 
promoted through insurance company incentives, and what about 
its rating system?  
        MS. NASON.  We have looked at multiple types of electronic 
stability control, two sensors versus four; there are numerous ways 
to look at it.  And I would expect that we should have a proposed 
rule out before the end of the summer, at which point I would 
appreciate the opportunity to talk further with the committee about 
what we are proposing.  It is still under review at the 
Administration, but my hope is that we will have that out very 
soon because we are very enthusiastic about that technology, as I 
know you are. 
        MR. STEARNS.  Well, okay. 
        I think Ms. Schakowsky wants to be recognized.
        MS. SCHAKOWSKY.  Yes, I have a couple of things.  
        I know we talked about this, but I do want to talk to you a little 
about it on the record.  SAFETEA-LU said the database for 
collection and tracking of the injury and fatality data on non-traffic 
accidents was to be set up by August of this year.  And you 
described some of the difficulties in getting that information.  But I 
just wanted to--did I understand that it will be set up by August?  Is 
that your--that is what it said in the legislation, the database was to 
be set up.  
        MS. NASON.  I have to go back and make sure, because I don't 
want to make a commitment and turn out to be wrong.  I believe 
the answer is yes.  They have worked very hard.  And as you and I 
have talked about, there have been some challenges that our 
researchers have had in finding this information.  But they are 
moving forward very aggressively, and I would rather confirm 
with them and get back to you if that is all right. 
        MS. SCHAKOWSKY.  Okay, because I appreciate what you said 
about wanting to not ask for extensions on things and get the jobs 
done. 
        I wondered if you could update us on the agency's effort to 
ensure that 15-passenger vans, which prove to be particularly 
prone to rollover accidents and were addressed in SAFETEA-LU, 
are included in the NCAP rollover resistance tests. 
        MS. NASON.  Right.  We have done the purchases of the vans 
and are doing the testing as required.  We also sent notices to the 
schools to remind them of the other provisions in SAFETEA-LU 
regarding the issues of the 15-passenger vans. 
        MS. SCHAKOWSKY.  You sent notices to--
        MS. NASON.  Schools around the country, to the States, to let 
them know of the provisions in SAFETEA-LU about primary and 
preprimary children not being in 15-passenger vans.  And we 
purchased the vans.  And we are doing the tests for the rollover. 
        MS. SCHAKOWSKY.  So that notification directly to schools 
went out?  Great.  From NHTSA?  Thank you. 
        I don't have any other questions, Mr. Chairman. 
        MR. STEARNS.  All right.  Thank you.  I appreciate your 
indulgence, and I appreciate Ms. Nason for coming and 
Mr. Medford for his support, and with that, this subcommittee is 
adjourned. 
        MS. NASON.  Thank you, Mr. Chairman. 
        [Whereupon, at 3:30 p.m., the subcommittee was adjourned.]

</pre></body></html>
